                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: At0090072                                                                         Page 1 of 1



                 We received an allegation of plagiarism as part of an ongoing investigation and sent the
         subject 1 an inquiry letter, concerning three proposals. 2 The subject's response alleged that most of
         the text was constrained by its technical nature. We determined that some of the text was
         constrained by its technical nature. The remaining text was. small amount and did not rise to the
         level of research misconduct. We sent the subject a questionable research practices letter.

         Accordingly, the case is closed.




NSF OIG Fonn 2 (11102)
